No. 19A
IN THE SUPREME COURT OF THE UNITED STATES
JON ERIC SHAFFER,

Applicant,
v.
COMMONWEALTH OF PENNSYLVANIA,

Respondent.

PROOF OF SERVICE
I, Amir H. Ali, hereby certify that I am a member of the Bar of this Court, and
that I h ave this 23rd day of August, 2019, caused the accompanying Application fo r
an Extension of Time Within \iVhich to File a Petition for a Writ of Certiorari to be
served via first-class mail postage pre-paid and an electronic version of the document
to be transmitted via electronic mail to:
Patricia J o McLean, First Assistant District Attorney
Butler County District Attorney's Office
P.O. Box 1208
Butler, PA 16003-1208
Telephone: (724) 284-5443
pmclean@co. butler. pa. us

August 23, 2019
Counsel of Record

